Nicholas J. Bronni
Solicitor General

Direct Dial: (501) 682-6302
nicholas.bronni@arkansasag.gov

September 9, 2020
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Johnson v. Arkansas, No. 20-48 ***CAPITAL CASE***

Dear Mr. Harris:
I write on behalf of Respondent State of Arkansas to request an additional 30-day
extension of the deadline for filing a brief in opposition to the petition for a writ of certiorari in
this matter. The deadline was previously extended from August 19, 2020, to September 18,
2020. With this requested extension, the response would be due on October 19, 2020. Petitioner
Stacey Johnson does not oppose this request.
A 30-day extension is reasonable and necessary because of other professional obligations.
Along with other routine responsibilities and ongoing lower court matters related to COVID-19,
I and my staff have been tasked with additional responsibilities for several expedited and
potentially emergency election matters. I am also preparing to present an oral argument before
this Court on October 6, 2020.
Sincerely,
/s/ Nicholas J. Bronni
Nicholas J. Bronni

cc: Jane Taylor Pucher, jpucher@innocenceproject.org, Counsel for Petitioner

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

